           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       THE SOCIAL SECURITY
  ADMINISTRATION’S MONITORING OF
     DEDICATED ACCOUNTS FOR
  SUPPLEMENTAL SECURITY INCOME
            RECIPIENTS


     August 2007   A-13-06-16032




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      August 3, 2007                                                              Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Monitoring of Dedicated Accounts for
           Supplemental Security Income Recipients (A-13-06-16032)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA)
           complied with its policies and procedures regarding the monitoring of dedicated
           accounts for Supplemental Security Income (SSI) recipients.

           BACKGROUND
                                                                                      1
           SSA administers the SSI program under Title XVI of the Social Security Act. The SSI
           program provides payments to individuals who have limited income and resources and
           who are either age 65 or older, blind or disabled. 2

           Some individuals cannot manage or direct the management of their finances because
           of their age or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’
           payments. A representative payee may be an individual or an organization. SSA
           selects representative payees for SSI recipients when representative payments would
           serve the individual’s interests.

           Public Law 104-193, enacted August 22, 1996, requires that certain past due benefit
           payments for SSI recipients under age 18 be placed in dedicated accounts. 3
           Dedicated accounts are separately maintained from other accounts and may only be
           used for certain expenditures. Only certain SSI underpayments may be deposited into
           dedicated accounts. A dedicated account must be established when the applicable
           1
               Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
            To be eligible for SSI payments, the individual must also (1) be a U.S. resident; (2) be a U.S. citizen or
           an eligible noncitizen; and (3) meet certain income and resource limits.
           3
            The Personal Responsibility and Work Opportunity Reconciliation Act of 1996, Public Law 104-193, 110
           Stat 2105, § 213, effective August 22, 1996.
Page 2 - The Commissioner


past due SSI payment exceeds six times the maximum monthly benefit payable. As of
April 2006, there were approximately 27,000 recipients in current pay status with
                                                                                  4
dedicated account balances indicated on the Supplemental Security Record (SSR).
These dedicated accounts totaled about $65 million.

Usually, these funds are managed by representative payees, who may only use the
funds for allowable expenses. Allowable expenses must be related to the recipients’
impairments and include impairment-related expenses for medical treatment and
education or job skills training. Generally, the funds may not be used for non-
impairment-related expenses, including food, clothing, housing, and personal items.
However, SSA may approve use of dedicated account funds for basic living expenses
to prevent a recipient from becoming homeless or malnourished.

SSA field offices are responsible for monitoring representative payee performance. 5
Each year, representative payees for recipients with dedicated accounts are required to
complete and submit Representative Payee Report of Benefits and Dedicated Account,
SSA-6233-BK (Form SSA-6233) to appropriate field offices. The Form SSA-6233, a
management control for monitoring dedicated accounts, assists SSA in determining the
(1) use of dedicated account funds and SSI payments during the preceding 12-month
reporting period, (2) representative payee’s continuing suitability, and (3) continuing
need for representative payment. The Form SSA-6233 reporting requirement remains
in effect until the dedicated account is depleted or the recipient’s eligibility is terminated.
If an individual continues receiving SSI payments and has the payments managed by a
representative payee, the payee must annually complete a Representative Payee
Report (RPR).

RESULTS OF REVIEW

We identified instances where SSA did not always follow its policies and procedures
regarding the monitoring of dedicated accounts for SSI recipients. We found (1) Forms
SSA-6233 were not always provided; (2) information systems did not always indicate
evaluation of the representative payees’ responses; and (3) dedicated accounts were
not always monitored timely.




4
  Of the approximately 27,000, a total of 8,878 recipients had dedicated account balances of $0.00
indicated on the SSR. See Appendix B, Scope and Methodology.
5
    Program Operations Manual System (POMS), GN 00602.140.
Page 3 - The Commissioner


SSA COULD NOT ALWAYS PROVIDE FORMS SSA-6233

SSA could not always provide the Forms SSA-6233. For our review, we requested
these annual reports for a sample of 305 recipients (see Appendix B). As of
December 2005, SSRs for the 305 recipients showed dedicated account balances
                            6
totaling about $1.4 million. Of the 305, the Agency could not provide Forms SSA-6233
for 154 recipients (about 50 percent). For 151 recipients, SSA provided reports that
were submitted by representative payees during Calendar Year (CY) 2005 or earlier.

SSA policy7 requires that the Forms SSA-6233 be retained for 2 years. In July 2006,
we requested the Agency provide Forms SSA-6233 that representative payees should
have submitted during CYs 2000 through 2005. Based on its policies, the Agency
should have been able to, at a minimum, retrieve those Forms submitted by payees
after June 2004. Representative payees should have submitted Forms for all 305
recipients in our sample in CY 2005, and SSA should have been able to provide these
reports. However, of the 305, the Agency could only provide Forms for 93 recipients
(30 percent).

In response to our requests for the Forms SSA-6233, on October 10, 2006, Agency
staff reported.

            . . . and the ROs [Regional Offices] regret that they have not been able to
            provide [Forms] SSA-6233s for all of the requested cases. The replies
            indicate that the various field office components have searched for the
            folders, including retrieving folders from storage facilities. In many
            instances, although the claims folder as well as separate postentitlement
            folders were retrieved from storage, no [Form SSA-] 6233 was in any of
            the files. Unfortunately, there are no additional steps that can be taken for
            those situations.

Office of Operations staff further reported “this could mean that the form was not
completed for a variety of reasons, in addition to the obvious one (accountings not
done)” or were not found.

Since the Forms SSA-6233 could not be provided, we question the effectiveness of this
management control for monitoring dedicated accounts. The SSRs for the
154 recipients for which we did not receive reports indicated dedicated account
balances totaling about $924,000 as of December 2005. 8 We are concerned about



6
 We analyzed information from an April 2006 data extract of the SSRs. The dedicated account balances
as of December 2005 were included in the data extract.
7
    POMS, GN 00605.215 B.5.
8
    Ibid.
Page 4 - The Commissioner


whether the funds in these dedicated accounts were used in accordance with SSA
policy. Without effective monitoring by SSA, funds in these accounts could be at-risk of
misuse.

EVALUATIONS OF PAYEE RESPONSES
WERE NOT ALWAYS RECORDED

The Agency’s information systems did not always indicate evaluation of representative
payees’ responses on the Forms SSA-6233. Field office staffs are required to evaluate
representative payees’ responses on the Forms SSA-6233. 9 However, SSA policy
does not require that field office staff record the evaluation of representative payees’
Form SSA-6233 responses.

Our review of Forms SSA-6233 for 151 recipients found 62 recipients whose Forms
SSA-6233 contained questionable and incomplete responses. 10 Of the 62 recipients,
data in the Agency’s information systems did not indicate the required evaluations were
completed for 31 recipients.

We believe SSA management should be able to determine whether field office staff
complied with policies and procedures for the evaluation of Forms SSA-6233. Office of
Income Security Programs staff explained when field office staff resolve unacceptable
payee responses, it is expected the instructions for the RPR are followed. The
instructions require that staff resolve discrepant responses and record related activity
on a Report of Contact. 11 Further, Standards for Internal Control in the Federal
Government, state that transactions should be promptly recorded to maintain their
relevance and value to management in controlling operations and making decisions.
The guidance also states “Internal control and all transactions and other significant
events need to be clearly documented, and the documentation should be readily
                            12
available for examination.”

To determine whether questionable and incomplete representative payee responses
were evaluated, we reviewed information recorded in the 62 recipients’ respective SSRs
and SSA’s Modernized Supplemental Security Income Claims System. Of the
62 recipients, 31 did not have information recorded in these systems to indicate the
field office staff completed the required evaluation. We also found information in SSA’s
systems indicating the questionable and incomplete payee responses for 22 recipients


9
    POMS, GN 00605.221and GN 00605.066 - GN 00605.069.
10
  Questionable responses are defined as those that (1) conflicted with other information in the report or
(2) identified expenditures not permitted by SSA policy. Responses were considered incomplete if critical
data were missing.
11
     POMS, GN 00605.060 C.
12
  See General Accounting Office (now known as the Government Accountability Office), GAO/AIMD-00-
21.3.1, Standards for Internal Control in the Federal Government, November 1999.
Page 5 - The Commissioner


were resolved. For the remaining nine recipients, information in the two systems lacked
sufficient details to independently determine whether issues regarding payee responses
were resolved.

Staff from the Office of Operations explained the information regarding representative
payees’ questionable and incomplete responses may have been recorded in other
                                                   13
Agency systems, such as StaRZ and Stripes 2000 or the Modernized Development
Worksheet. 14 Information recorded in these two systems is deleted after a certain
period of time. We do not have direct access to the StaRZ and Stripes 2000.
Therefore, we did not independently assess information recorded in this system. We
did not locate information in the Modernized Development Worksheet indicating the
questionable and incomplete payee responses were resolved for the 62 recipients.

Because SSA’s policy does not require that field office staff record the evaluation of
payees’ Forms SSA-6233 responses, we question whether staff is always conducting
the required evaluations. When staff does not record such monitoring activities, there is
an increased risk that dedicated accounts are not adequately monitored. Without
adequate monitoring, funds in these accounts could have been used inappropriately.

SSA staff should record the evaluation of Forms SSA-6233. However, the Agency
could consider whether a comprehensive evaluation is needed for all forms. On
April 12, 2006, we identified the following recipients as having dedicated account
balances on the SSRs.

                   Table: SSI Recipients with Dedicated Account Balances

                    Account                       Number of                  Total
                   Balances                       Recipients                Dollars
                    0 - $100                        11,888                $    78,953
               $100.01 - $1,000                      2,624                  1,241,563
               $1,000.01 - $2,500                    2,421                  4,156,815
               $2,500.01 - $5,000                    4,958                 19,057,524
              $5,000.01 - $10,000                    3,811                 25,449,956
              Greater than $10,000                   1,000                 15,436,545

                       Totals                        26,702               $65,421,356

Since approximately 36.5 percent (9,769) of the dedicated accounts contained about
91.6 percent ($59.9 million) of the total funds, we believe SSA may want to reassess its
policies for monitoring dedicated accounts using a risk-based approach.

13
  StaRZ and Stripes 2000 is an Access application that works with the SSI Postentitlement Operational
Data Store system to control workloads that include dedicated accounts. The StaRZ and Stripes
2000 records are deleted after development and clearance actions are complete.
14
  The Modernized Development Worksheet is a control tool to assist field offices with pending workloads.
After 120 days, the Modernized Development Worksheet records are deleted.
Page 6 - The Commissioner


MONITORING OF DEDICATED ACCOUNTS WAS
NOT ALWAYS TIMELY

SSA’s monitoring of dedicated accounts was not always timely. We found the Agency
did not consistently obtain representative payees’ reporting on dedicated accounts
annually, as required. In addition, field office staff did not always update account
balances.

Reporting for Dedicated                Representative payees’ Forms SSA-6233 were not
Accounts Was Not Completed             always completed annually. SSA policy states
Annually                               “Representative payees are required to account, on
                                       an annual basis, for the use of benefits and report
on the activity of funds in the dedicated account.” Policy also states “Representative
payees and age 18 (or older) recipients with dedicated accounts must report annually
on the activity of funds in the account to ensure deposits and expenditures are in
                            15
compliance with the law.”      Of the 151 recipients reviewed, representative payees for
67 did not complete Forms for dedicated accounts annually.

For the 67 recipients, we reviewed SSA Forms SSA-6233 that requested payees report
dedicated account information covering periods longer than 12 months. SSA’s field
offices determined the reporting periods specified on the Forms SSA-6233. Of the
67 recipients, 23 had Forms SSA-6233 with reporting periods longer than 18 months.
For example, one Form SSA-6233 requested the payee provide information for a
28-month period. The representative payee reported costs for this period totaling
over $3,000.

We were unable to determine why the field offices requested the payees to report on
dedicated accounts for periods exceeding 12 months. We believe the 12-month
reporting period, if observed by field office staff, would provide the Agency more timely
information regarding dedicated accounts.

                              Dedicated account information on the SSR had not been
Dedicated Account             updated, as required. SSA policy indicates, when field
Balances Were Not             office staffs complete dedicated account monitoring, the
Always Updated                dedicated account balance must be updated. 16 For our
                              sample of 305 recipients, as of April 2006, 101 (about
33 percent) did not have dedicated account balances updated on the SSR in CY 2005.
However, the balances for all 305 recipients should have been updated during that
time. Further, the account balances for the 101 recipients we identified had not been
updated since CY 2004 or earlier. For example, a recipient included in our review had
a dedicated account balance of $12,220 that had not been updated since October
2000.

15
     POMS, GN 00605.200.
16
     POMS, GN 00605.230.
Page 7 - The Commissioner


Office of Operations staff indicated the absence of the dedicated account balance on
the SSR does not mean the Form SSA-6233 was not completed. The Form SSA-6233
may have been completed, but the SSR dedicated account balance fields were not
updated as required. Policy requires that the dedicated account balance be updated
                                   17
once the monitoring is completed.

Field offices manually mail the Forms SSA-6233. When the field office receives a diary
alert from the Agency’s computer systems, staff is required to complete certain data on
the Form SSA-6233. These data include the reporting periods specified on the Forms
SSA-6233. After the applicable data are recorded, the Forms SSA-6233 are mailed to
the representative payees.

If SSA were to automate the field offices’ input to, and mailing of, Forms SSA-6233, it
may increase the efficiency and effectiveness of the annual report as a management
control for monitoring dedicated accounts. Except for the three questions relating to
dedicated accounts, the SSA-6233 and RPR ask payees the same questions. The
mailing of reports to payees serving recipients without dedicated accounts is an
automated process performed by a contractor. The contractor completes certain data
on the RPR and mails the report to the representative payee.

We did not determine the cause for the Agency’s actions. We believe the Agency’s
actions could result in untimely detection of inappropriate use of dedicated account
funds. The 23 recipients with reporting periods greater than 18 months had dedicated
account balances totaling about $142,000 as of December 2005. 18 Our analysis also
                          19
identified 101 recipients with account balances that were not updated, as required,
totaling about $573,000. 20 Without timely monitoring, these funds may be at-risk
because SSA may be unable to timely (1) detect and resolve instances of misuse of
funds or (2) identify representative payees who are no longer suitable.




17
     POMS, SI 02305.011.
18
     See footnote 6, page 3.
19
  Twelve SSI recipients were included in both (1) the 23 recipients over 18-month reporting period and
(2) the 101 recipients with dedicated account balances not updated in CY 2005.
20
     Ibid.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We determined SSA did not always follow its policies and procedures regarding the
monitoring of dedicated accounts for SSI recipients. We acknowledge the Agency may
not consider dedicated account monitoring a priority workload. In 2006, SSA
“suppressed” a workload that affected its monitoring of dedicated accounts.
Administrative Message 05219 REV, indicated, effective January 7, 2006, the
mechanism that alerted field office staff to issue Forms SSA-6233 was being
suppressed.

Since individuals receiving SSI payments are among the most vulnerable beneficiaries
SSA serves, the Agency should monitor the funds in their dedicated accounts in an
adequate and timely manner. We recommend SSA:

1. Remind field offices of Form SSA-6233 retention and storage requirements.

2. Review its policies and procedures relating to Forms SSA-6233 and revise as
   necessary to ensure dedicated accounts are appropriately monitored.

3. Evaluate the cost-benefit of automating the Form SSA-6233 process.

AGENCY COMMENTS
SSA agreed with our recommendations. The text of SSA’s comments is included in
Appendix C.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                            Appendix A

Acronyms
CY              Calendar Year
Form SSA-6233   Representative Payee Report of Benefits and Dedicated Account
OIG             Office of the Inspector General
POMS            Program Operations Manual System
RPR             Representative Payee Report
SSA             Social Security Administration
SSI             Supplemental Security Income
SSR             Supplemental Security Record
                                                                     Appendix B

Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable laws and regulations, pertinent parts of the Social Security
    Administration’s (SSA) Program Operations Manual System and other criteria
    relevant to the Supplemental Security Income (SSI) program and the monitoring of
    dedicated accounts.

•   Identified prior relevant audits.

•   Interviewed staff from SSA’s Offices of Operations and Income Security Programs.

•   Analyzed information recorded on the Supplemental Security Record (SSR) and the
    Modernized Supplemental Security Income Claims System.

•   Reviewed Representative Payee Reports of Benefits and Dedicated Account,
    SSA-6233-BK.

We obtained an electronic data extract identifying recipients who were receiving SSI
payments as of April 2006 and who had dedicated account balances recorded on their
SSRs. As of April 12, 2006, we identified 26,702 SSI recipients who met these criteria.
Of these 26,702, we identified 23,471 recipients whose latest dedicated account
balances had dates between January 1, 2000 and December 31, 2005. Excluded from
review were recipients whose latest account balances were outside this time frame. Of
the 23,471, we did not consider for review SSI recipients whose latest dedicated
account balances were $0.00 as of December 31, 2004. As a result, we identified
17,277 SSI recipients we could assess their dedicated accounts.

Of the 17,277 SSI recipients identified, we selected a sample of 305 recipients to
review. Our sample consisted of random samples from 3 sampling frames consisting of
(a) 50 of 1,942 SSI recipients with dedicated account balances of $0.00 in Calendar
Year (CY) 2005 on the SSR; (b) 50 of 3,916 SSI recipients with dedicated account
balances of $.01 - $500 on the SSRs for CYs 2000 through 2005; and (c) 200 of 11,414
SSI recipients with dedicated account balances over $500 for CYs 2000 through 2005.
In addition, we included in our sample the five SSI recipients with the highest reported
dedicated account balances.




                                          B-1
We determined computer-processed data to be sufficiently reliable for their intended
use. Further, any data limitations were minor in the context of this assignment, and the
use of the data should not lead to an incorrect or unintentional conclusion. The
electronic data used in our audit was primarily extracted from the SSR. We tested
completeness of the data by reviewing the programming logic used for the data extract.
The accuracy of the data was tested by tracing individual data fields from the electronic
extract to information contained within the SSR, as appropriate. Other tests we
performed include
•   comparing data elements on the SSR and Forms SSA-6233 for consistency and
•   analyzing the data extract for missing data fields, unrealistic values or dates, or
    illogical relationships between data fields.

We performed our review at SSA Headquarters in Baltimore, Maryland. The entity
reviewed was the Office of the Deputy Commissioner for Operations. We performed
our review from August 2006 through April 2007 in accordance with generally accepted
government auditing standards.




                                             B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      July 25, 2007                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "The Social Security Administration’s
           Monitoring of Dedicated Accounts for Supplemental Security Income Recipients”
           (A-13-06-16032)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on (410) 965-4636.


           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S MONITORING OF
DEDICATED ACCOUNTS FOR SUPPLEMENTAL SECURITY INCOME
RECIPIENTS” (A-13-06-16032)

Thank you for the opportunity to review and provide comments on this draft report. Our
comments on the draft recommendations are as follows.

Recommendation 1

Remind field offices of Form SSA-6233 retention and storage requirements.

Comment

We agree. We will issue a reminder to field office employees regarding the retention and storage
of Forms SSA-6233 by the end of September 2007.

Recommendation 2

Review its policies and procedures relating to Forms SSA-6233 and revise as necessary to ensure
dedicated accounts are appropriately monitored.

Comment

We agree. We will update policy instructions to emphasize that development of unacceptable
payee responses on the Form SSA-6233 is required. Additionally, we will determine the best
mechanism the field office should use to ensure a permanent record exists detailing the outcome.
We expect to complete these tasks by the end of March 2008.

Recommendation 3

Evaluate the cost-benefit of automating the Form SSA-6233 process.

Comment

We agree in theory; however, due to the lack of system resources and competing Agency
priorities, we are unable to support development of an automated system for this process. A
substantial amount of system programming and changes in our business process would have to
be completed to implement the automation of this small workload. We also believe that
collections of misapplied dedicated account funds would be quite limited. However, we will
continue to consider possible ways to improve our business process to increase the timeliness of
dedicated account monitoring.

We are in the process of completing substantial improvement in a higher volume workload of
annual accounting, which will yield substantial savings.


                                               C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365
   Lance Chilcoat, Audit Manager, (410) 965-9743

Acknowledgments

In addition to those named above:

   Janet Stein-Pezza, Analyst-in-Charge
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-06-16032.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
